BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Reply Brief for the Petitioner
in 19-460, Alexander Y. Usenlw, Derivatively on Behalf
of the SunEdison Semiconductor Ltd. Retirement
Savings Plan v. MEMC LLC, et al., were sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service and e-mail to the
following parties listed below, this 19th day of
November, 2019:
Mark B. Blocker
Christopher K. Meyer
SIDLEY AUSTIN LLP
One South Dearborn Street, Suite 2800
Chicago, IL 60603
(312) 853-7000
mblocker@sidley.com
cmeyer@sidley.com
Sarah A. Hemmendinger
SIDLEY AUSTIN LLP
555 California Street, Suite 2000
San Francisco, CA 94104
(415) 772-1200
shemmendinger@sidley.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

Matthew W.H. Wessler
Counsel of Record
Gupta Wessler PLLC
1900 L Street, NW, Suite 312
Washington, DC 20036
(202) 888-1741
matt@guptawessler.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 19, 2019.

DonnaJ. W
Becker Gallagher Le ga Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JULIE AN~E KERSHNER
f\l?Jary Public, Slate of OhJo
i1 / _
Cummission Expires
I 9oru,1ry 21, 2023

